Audit Report



Return
    to the USDOJ/OIG Home Page



Office of
Community Oriented Policing Services Grants to the
Milpitas Police Department, California
GR-90-02-008
February 2002
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of four grants awarded by the Office of Community Oriented Policing Services (COPS) to the Milpitas, California Police Department (MPD).  The purposes of the grants were to enhance community policing.  The MPD was awarded a total of $471,875 to hire four new police officers and redeploy the equivalent of 1.8 existing full-time police officers from administrative duties to community policing.

We found the MPD to be in material non-compliance with COPS' grant requirements.  We reviewed the MPD's compliance with seven essential grant conditions and found material weaknesses in the hiring of additional officers, reimbursement requests, and retention of officer positions.  As a result of the deficiencies identified below, we question $192,642 in grant funds received and recommend an additional $2,264 be deobligated and the funds put to better use. 1

The MPD violated the COPS Office's non-supplanting requirement.
The MPD did not hire or retain the required number of sworn officers for the AHEAD and UHP grants.  Because the MPD violated the COPS Office's non-supplanting requirement, we conclude that retention of the CIS officer cannot occur.
The MPD was reimbursed more than the allowable federal share for the AHEAD and UHP grants.
The MPD was reimbursed for unallocable expenses on the MORE 96 grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.




Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.